                                                  Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General
Subject:   INFORMATION: Notification of Major                           Date:    August 28, 2006
           Project Monitoring for
           Lower Manhattan Recovery Projects
           Project Number: 06M90 18M000

 From:     Rebecca A. Batts          gd- aw2c2a                       Reply to
                                                                      Attn of:   JA-40
           Deputy Assistant inspector General
             for Surface and Maritime Programs

           Deputy Federal Transit Administrator



           In response to the extensive devastation caused by the September 11, 2001
           terrorist attacks, the Federal Government dedicated $4.55 billion for several
           high-priority projects to reconstruct and enhance Lower Manhattan' s
           transportation infrastructure.    The five high-priority projects are the
           Permanent World Trade Center PATH Terminal, Fulton Street Transit Center,
           South Ferry Terminal Station, the World Trade Center Vehicle Security
           Center, and the Route 9A/West Street/Promenade highway project. These
           large-scale projects will require vigilant oversight by the Department, state
           and local governments, and transit agencies.

           The Federal Transit Administration (FTA) has the lead oversight role for the
           Department on these projects. Accordingly, as part of the Federal
           commitment, FTA has received nearly $90 million of dedicated funding to do
           so. To carry out its oversight responsibilities in Lower Manhattan, FTA has
           created a special oversight office, the Lower Manhattan Recovery Office. The
           Lower Manhattan Recovery Office is separate from FTA's New York field
           office and its sole purpose is to oversee these high-priority projects in Lower
           Manhattan.

           On July 13, 2006, the Acting Inspector General testified before the House
           Subcommittee on Management, Integration, and Oversight, Committee on
           Homeland Security, regarding Lower Manhattan reconstruction and stressed
           that effective day-to-day oversight of these large, complex transportation
           projects is critical to ensuring that the projects are completed on time, within
budget, and free from waste, fraud, or abuse. He also agreed to the
Subcommittee's request for the Office of Inspector General (OIG) to provide
an independent perspective on these projects and established an OIG Lower
Manhattan Transportation Oversight Team to support this oversight.

Our team will begin their oversight efforts in Lower Manhattan by conducting
major project monitoring of the five high-priority projects that are being fbnded
out of the $4.55 billion. The primary objectives of this effort will be to assess
(1) the status of each Project, including costs, funding, schedules, and
management, and (2) any risks that may adversely impact their completion. In
addition, as part of the monitoring effort we will look at issues related to FTA's
Lower Manhattan Recovery Office's oversight of these projects and the
activities of the project management oversight contractors that are assigned to
each project.

We will conduct the monitoring effort at FTA Headquarters, FTA's Lower
Manhattan Recovery Office, grantees of the 5 projects, and other related sites as
needed. We plan to begin work the week of September 5, 2006, and will contact
your audit liaison to schedule an entrance conference.

If I can answer any questions or be of M e r assistance, please do not hesitate to
contact me at (202) 366-5630 or Tom Yatsco, the Program Director for this
effort, at (202) 366- 1302.



cc: Audit Liaison, OST, M-1
    Audit Liaison, FTA, TBP-30
